Scott S. Brown
Direct Dial: (205) 259-6633
E-mail: sbrown@mixonfirm.com

15 October 2021
BY FEDERAL EXPRESS
& ELECTRONIC FILING
The Honorable Scott S. Harris
Clerk, Supreme Court of the United States
One First Street, N.E.
Washington, D.C. 20543
Re: Betty R. Shipley v. Helping Hands Therapy and Sarah Beaugez,
Case No. 21-481
Dear Mr. Harris:
I represent Respondents Helping Hands Therapy and Sarah Beaugez, in the
above-captioned case, which was docketed on 30 September 2021. The brief in
opposition is currently due 1 November 2021. I respectfully request a 42-day
extension of time, to and including 13 December 2021, in which to file the brief in
opposition. Counsel for Petitioner does not object to the requested extension.
A 42-day extension to and including 13 December 2021 will ensure that we
have sufficient time to fully analyze and respond to the arguments raised in the
petition for certiorari in this case.
Thank you for your consideration of this request.
Respectfully submitted,

Scott S. Brown

cc:

David A. O’Neil
Counsel of Record for Petitioner

Two Perimeter Park South ● Suite 550E ● Birmingham, AL 35243 ● mixonfirm.com

